Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     WEAKNESSES IN IDAHO’S
 INFORMATION SYSTEM GENERAL
  CONTROLS OVER ITS MEDICAID
   CLAIMS PROCESSING SYSTEM
   INCREASE VULNERABILITIES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Thomas M. Salmon
                                               Assistant Inspector General

                                                       March 2014
                                                      A-09-12-03009
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Idaho did not implement adequate information system general controls over its Medicaid
 claims processing system. We identified 19 reportable weaknesses in access controls,
 configuration management, and security management.

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) oversees States’ use of various
Federal programs, including Medicaid. State agencies are required to establish appropriate
automatic data processing (ADP) security requirements and conduct biennial reviews of ADP
system security used in the administration of State plans for Medicaid and other Federal
entitlement benefits. This review is one of a number of HHS Office of Inspector General
reviews of States’ ADP systems used to administer HHS-funded programs.

Our objective was to determine whether the Idaho Department of Health and Welfare (State
agency) implemented adequate information system general controls over its Medicaid claims
processing system.

BACKGROUND

The State agency administers the Medicaid program. During fiscal year 2012, the State agency
provided Medicaid services to over 225,000 Medicaid beneficiaries, totaling more than
$1.6 billion in expenditures.

This review covered the State agency’s information system general controls over its Medicaid
claims processing system. As part of its overall administration of the Medicaid claims
processing system, the State agency contracted with Molina Medicaid Solutions (Molina) to
operate the Medicaid Management Information System (MMIS). The MMIS processes
Medicaid claims and manages sensitive claims data, such as beneficiary names and Social
Security numbers. The State agency uses the State’s computer and telecommunications facility
to access the MMIS; therefore, this review focused on the security of the State agency’s network.
We will review Molina’s information system general controls over the MMIS in a separate audit.

To accomplish our objective, we reviewed policies and procedures, interviewed staff, and
reviewed supporting documentation. Also, we used an audit software-scanning program to
determine whether selected network devices had security-related vulnerabilities.

WHAT WE FOUND

The State agency did not implement adequate information system general controls over its
Medicaid claims processing system. Specifically, we identified 19 reportable weaknesses, which
we consolidated into 5 findings and grouped into the following categories: access controls,
configuration management, and security management.




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   i
    •   Access controls. The State agency had inadequate logical access security controls,
        including inadequate password settings for securing its network and inadequate
        encryption of network passwords. In addition, the State agency had inadequate physical
        access security controls to restrict access to its computer and telecommunications facility
        to only individuals who need access to the facility to perform their job duties.

    •   Configuration management. The State agency had inadequate settings for network
        devices, such as allowing the use of insecure network protocols (the language of rules
        and conventions for communication between network devices) and the use of network
        services (functions that help networks to operate more efficiently) that were not necessary
        for the State agency’s network.

    •   Security management. The State agency had inadequate security control policies and
        procedures, including inadequate policies to verify sanitization of data and disposal of
        devices and no policies and procedures to periodically review and account for inventory
        of portable devices. In addition, the State agency had inadequate personnel policies and
        procedures related to security awareness training, training for employees with significant
        responsibilities for information security, completion of exit documents for transferred and
        terminated employees, and background checks of employees.

We ranked each of the findings as high impact.

Although we did not find evidence that the weaknesses had been exploited, exploitation could
result in unauthorized access to and disclosure of sensitive information, as well as disruption of
critical operations to the Medicaid program. As a result, we believe that the weaknesses are
collectively and, in some cases, individually significant and could potentially compromise the
integrity of the Medicaid program. In addition, without proper safeguards, systems are
unprotected from individuals and groups with malicious intent to obtain access to commit fraud,
waste, or abuse or launch attacks against other computer systems and networks.

WHAT WE RECOMMEND

We recommend that the State agency implement adequate information system general controls
over its Medicaid claims processing system. Specifically, we recommend that the State agency:

    •   implement adequate logical access security controls to enforce the requirement that
        passwords not be reused and use a secure method to store its encrypted network
        passwords;

    •   implement additional physical access security controls to restrict access to its computer
        and telecommunications facility to only individuals who need access to the facility to
        perform their job duties;

    •   implement secure configuration settings for its network devices;




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   ii
    •   strengthen policies and follow existing procedures to verify data sanitization and device
        disposal and implement policies and procedures to periodically review and account for
        inventory of all portable devices; and

    •   implement adequate personnel policies and procedures for general security awareness
        training, training for employees with significant responsibilities for information security,
        completion of exit documents for transferred and terminated employees, and background
        checks of employees, including those hired from providers or contractors.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our finding on
inadequate logical access controls and provided information on actions taken to address our first
recommendation. The State agency also concurred with our second, fourth, and fifth
recommendations and provided information on actions that it had taken or planned to take to
address our recommendations.

Regarding our third recommendation, the State agency concurred that modifications may be
necessary for the identified weaknesses in settings for network devices and stated that changes to
configuration settings were in the process of being made. However, the State agency commented
that some changes to these settings were not appropriate and provided one example. After
reviewing it, we determined that one of the weaknesses was not reportable and removed it from
the final report. However, we did not revise the wording of our third recommendation.




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   iii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Federal Oversight of States’ Automatic Data Processing Systems .....................1
                 Idaho Medicaid Program......................................................................................1
                 Information System General Controls ................................................................2

           How We Conducted This Review....................................................................................2

FINDINGS ...................................................................................................................................2

           Federal Requirements ......................................................................................................3

           State Agency Had Inadequate Access Controls ...............................................................3
                  Inadequate Logical Access Security Controls .....................................................4
                  Inadequate Physical Access Security Controls ....................................................4

           State Agency Had Inadequate Configuration Management.............................................5
                  Inadequate Settings for Network Devices............................................................5

           State Agency Had Inadequate Security Management ......................................................5
                  Inadequate Security Control Policies and Procedures .........................................6
                  Inadequate Personnel Policies and Procedures ....................................................7

RECOMMENDATIONS .............................................................................................................8

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................8

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................9

           B: Requirements Related to Information System General Controls ...............................10

           C: State Agency Comments ............................................................................................12




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)                                             iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) oversees States’ use of various
Federal programs, including Medicaid. State agencies are required to establish appropriate
automatic data processing (ADP) security requirements and conduct biennial reviews of ADP
system security used in the administration of State plans for Medicaid and other Federal
entitlement benefits. This review is one of a number of HHS Office of Inspector General
reviews of States’ ADP systems used to administer HHS-funded programs.

OBJECTIVE

Our objective was to determine whether the Idaho Department of Health and Welfare (State
agency) implemented adequate information system general controls over its Medicaid claims
processing system.

BACKGROUND

Federal Oversight of States’ Automatic Data Processing Systems

Federal regulations require State agencies to determine appropriate ADP security requirements
based on recognized industry standards or standards governing security of Federal ADP systems
and information processing (45 CFR part 95). In addition, these regulations require HHS to
conduct periodic onsite reviews of State and local agencies to determine the adequacy of ADP
methods and practices and to ensure that ADP equipment and services are used for purposes
consistent with proper administration under the Social Security Act.

Idaho Medicaid Program

The State agency administers the Medicaid program. During fiscal year 2012, the State agency
provided Medicaid services to over 225,000 Medicaid beneficiaries, totaling more than
$1.6 billion in expenditures.

This review covered the State agency’s information system general controls over its Medicaid
claims processing system. As part of its overall administration of the Medicaid claims
processing system, the State agency contracted with Molina Medicaid Solutions (Molina) to
operate the Medicaid Management Information System (MMIS). The MMIS processes
Medicaid claims and manages sensitive claims data, such as beneficiary names and Social
Security numbers. The State agency uses the State’s computer and telecommunications facility
to access the MMIS; therefore, this review focused on the security of the State agency’s
network. We will review Molina’s information system general controls over the MMIS in a
separate audit.




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   1
Information System General Controls

Information system general controls include policies and procedures that apply to an entity’s
overall computer operations. Some primary objectives of general controls are to safeguard data,
protect computer application programs, prevent unauthorized access to system software, and
ensure continued operations in case of unexpected interruptions.

The Medicaid program depends on general controls, which are critical to ensuring the
confidentiality, integrity, and availability of critical information and information systems. In
addition, without proper safeguards, systems are unprotected from individuals and groups with
malicious intent to obtain access to commit fraud, waste, or abuse or launch attacks against other
computer systems and networks. 1

HOW WE CONDUCTED THIS REVIEW

We reviewed the State agency’s information system general controls over its Medicaid claims
processing system. To accomplish our objective, we used appropriate procedures from the
Government Accountability Office’s Federal Information System Controls Audit Manual
(FISCAM), which provides guidance on evaluating general controls over computer-processed
data from information systems. We reviewed policies and procedures, interviewed staff, and
reviewed supporting documentation. To perform our tests, we used an audit software-scanning
program and judgmentally selected two types of network devices for testing to identify security-
related configuration vulnerabilities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A describes our audit scope and methodology.

                                                    FINDINGS

The State agency did not implement adequate information system general controls over its
Medicaid claims processing system. Specifically, we identified 19 reportable weaknesses, which
we consolidated into 5 findings and grouped into the following categories: access controls,
configuration management, and security management.

    •    Access controls. The State agency had inadequate logical access security controls,
         including inadequate password settings for securing its network and inadequate
         encryption of network passwords. In addition, the State agency had inadequate physical


1
  Fraud represents intentional acts of deception with knowledge that the action or representation could result in an
inappropriate gain. Waste includes inaccurate payments for services, such as unintentional duplicate payments.
Abuse represents actions inconsistent with acceptable business or medical practices.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)                 2
        access security controls to restrict access to its computer and telecommunications facility
        to only individuals who need access to the facility to perform their job duties.

    •   Configuration management. The State agency had inadequate settings for network
        devices, such as allowing the use of insecure network protocols (the language of rules
        and conventions for communication between network devices) and the use of network
        services (functions that help networks to operate more efficiently) that were not necessary
        for the State agency’s network.

    •   Security management. The State agency had inadequate security control policies and
        procedures, including inadequate policies to verify sanitization of data and disposal of
        devices and no policies and procedures to periodically review and account for inventory
        of portable devices. In addition, the State agency had inadequate personnel policies and
        procedures related to security awareness training, training for employees with significant
        responsibilities for information security, completion of exit documents for transferred and
        terminated employees, and background checks of employees.

We ranked each of the findings as high impact.

Although we did not find evidence that the weaknesses had been exploited, exploitation could
result in unauthorized access to and disclosure of sensitive information, as well as disruption of
critical operations to the Medicaid program. As a result, we believe that the weaknesses are
collectively and, in some cases, individually significant and could potentially compromise the
integrity of the Medicaid program. In addition, without proper safeguards, systems are
unprotected from individuals and groups with malicious intent to obtain access to commit fraud,
waste, or abuse or launch attacks against other computer systems and networks.

FEDERAL REQUIREMENTS

Federal requirements from the Health Insurance Portability and Accountability Act Security Rule
for access management appear in 45 CFR part 164. For additional requirements, we used Office
of Management and Budget (OMB) Circular No. A-130, Appendix III; National Institute of
Standards and Technology (NIST) Special Publication 800-12, An Introduction to Computer
Security: The NIST Handbook; NIST Special Publication 800-50, Building an Information
Technology Security Awareness and Training Program; and NIST Special Publication 800-53,
Security and Privacy Controls for Federal Information Systems and Organizations.

See Appendix B for Federal and other requirements related to information system general
controls.

STATE AGENCY HAD INADEQUATE ACCESS CONTROLS

Access controls limit or detect inappropriate access to computer resources (data, equipment, and
facilities), thereby protecting them from loss, disclosure, and unauthorized modification. Such
controls include both logical and physical controls:




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   3
    •   Logical access controls require users to authenticate themselves (by using passwords or
        other identifiers) and limit the files and other resources that authenticated users can
        access and the actions that they can execute.

    •   Physical access controls restrict physical access to computer resources and protect them
        from intentional or unintentional loss or impairment.

In assessing the State agency’s access controls, we identified weaknesses in its logical and
physical access security controls. Inadequate access controls diminish the reliability of
computerized information and increase the risk of unauthorized disclosure, modification, and
destruction of sensitive information and disruption of service.

Inadequate Logical Access Security Controls

The State agency had not implemented adequate logical access security controls. Specifically,
we noted the following:

    •   The State agency had an inadequate password setting for securing its network. Although
        the State agency’s password history policy prohibited password reuse, the State agency
        did not enforce this requirement on its network password setting. 2

    •   The State agency did not store its encrypted passwords on its network server using a
        secure method.

State agency officials said that their password history setting would be changed to prohibit
password reuse and they planned to use a secure method to store encrypted network passwords.

Without strong logical access security controls, there is an increased risk of unauthorized access
to sensitive computer systems and data.

Inadequate Physical Access Security Controls

The State agency had not implemented adequate physical access security controls to restrict
access to its computer and telecommunications facility, which contained equipment that
connected to the MMIS. Specifically, we noted that more than 60 individuals, including the
Governor, law enforcement, and the fire department, had access to the facility but did not need
access to perform their job duties.

A State agency official agreed that too many individuals had access to the computer and
telecommunications facility and stated that he believed that State law required certain
individuals, such as the Governor, law enforcement, and the fire department, to have access. We
asked the official to provide us with the law that required those individuals to have access. The
official stated that he asked two other State officials and neither could find such a law.

2
 Password history determines the number of unique new passwords that have to be associated with a user account
before an old password can be reused.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)           4
If access to the computer and telecommunications facility is not restricted to individuals who
need access to perform their job duties, there is an increased risk that computer resources and
sensitive information, such as electronic protected health information (ePHI), may not be
protected from intentional or unintentional loss or damage.

STATE AGENCY HAD INADEQUATE CONFIGURATION MANAGEMENT

Configuration management provides reasonable assurance that (1) changes to information system
resources, such as the settings of devices on the network, 3 are authorized and (2) systems are
configured and operated securely and as intended. Configuration management policies and
procedures should be developed, documented, and implemented at the entitywide, system
(hardware), and application (software) levels to ensure the security of the system.

Inadequate Settings for Network Devices

The State agency did not adequately configure the security of its network devices. We
judgmentally selected two types of network devices (one router and two switches) for testing and
used an audit software-scanning program that queries and extracts information from the devices
to identify potential security-related configuration vulnerabilities. We identified a total of
10 weaknesses in this area: 5 related to a router, 3 related to a switch, and 2 related to both.
For example, the State agency allowed the use of insecure network protocols 4 to manage network
devices. In addition, the State agency did not restrict services on network devices, such as
Maintenance Operations Protocol used to connect to remote systems, which were not necessary
for the State agency’s network. Manufacturers configure devices with default settings that are
not needed for every network.

State agency officials said that the devices had been configured a long time ago and had not been
updated.

Because the State agency’s network devices are integral to ensuring the security of the claims
processing system, failure to adequately secure the devices exposes the network and its resources
to attacks on the confidentiality, integrity, and availability of sensitive information, such as ePHI.
Such information includes names, addresses, birth dates, Social Security numbers, and medical
information.

STATE AGENCY HAD INADEQUATE SECURITY MANAGEMENT

An entitywide program for security planning and management is the foundation of an entity’s
security control structure and a reflection on senior management’s commitment to addressing
security risks.



3
  Devices used to secure networks include (1) routers that filter and forward data along the network and (2) switches
that forward information among segments of a network.
4
    Network protocols define a language of rules and conventions for communication between network devices.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)              5
In assessing the State agency’s entitywide security program, we identified weaknesses in the
following critical elements: (1) documenting and implementing security control policies and
procedures and (2) implementing effective security awareness and other security-related
personnel policies and procedures. Weaknesses in these elements increase the risk of
unauthorized use, disclosure, modification, or loss of sensitive information and information
systems supporting the agency’s mission.

Inadequate Security Control Policies and Procedures

The State agency had not implemented adequate security control policies and procedures.
Specifically, we noted the following:

       •   The State agency did not have adequate policies to verify sanitization of data 5 and
           disposal of devices, such as hard drives. Also, the State agency did not follow its
           procedures to:
               o document that data could not be recovered from sanitized devices,
               o identify the method used to remove data from discarded devices,
               o obtain the name and signature of the supervisor responsible for data sanitization,
                  and
               o identify the disposal method for devices.

       •   The State agency did not have specific inventory policies and procedures for portable
           devices, such as laptop computers and Universal Serial Bus storage devices, and did not
           account for these devices.

State agency officials stated that they were in the process of approving a policy to verify that
data could not be recovered from sanitized equipment and discarded devices. State agency
officials were not aware that the contractor was not following procedures to sanitize State data
on devices and to dispose of devices.

State agency officials stated that there were general inventory policies and procedures for items
costing more than $2,000. However, State agency officials had not yet developed and
implemented standard agencywide policies and procedures to inventory portable devices costing
less than $2,000.

Without adequate policies and procedures for verifying data sanitization and device disposal, the
State agency cannot ensure that State data are properly sanitized and devices are properly
disposed of.

Without adequate inventory controls for all portable devices, the State agency is at risk of a data
breach. Portable devices costing as little as $50 could contain ePHI and be easily lost or stolen,
making the State potentially liable for millions of dollars because of a data breach. 6

5
    Sanitization is the process of deliberately and irreversibly removing or destroying data on a device.
6
 The Ponemon Institute’s report entitled 2013 Cost of Data Breach Study: United States indicated that the average
cost of a data breach for an organization in 2012 was $5.4 million.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)              6
Inadequate Personnel Policies and Procedures

The State agency had not implemented adequate personnel policies and procedures. Specifically,
we noted the following:

    •   The State agency did not provide periodic refresher training on general security
        awareness to employees with access to the MMIS. The State agency provided security
        awareness training only to new employees.

    •   The State agency did not have policies to ensure that all employees with significant
        responsibilities for information security obtain training in their security responsibilities.
        We judgmentally selected five employees and found that while all five had received
        training within the last year, one of those five had not received any training in the prior
        20 years.

    •   The State agency did not have policies to ensure that exit documents were completed for
        all transferred and terminated employees. We judgmentally selected five terminated
        employees and found that the State agency did not have exit documents for three of them.
        Exit documents show the steps to be completed when an employee is transferred or
        terminated, including collecting keys and electronic keycards and notifying network
        administrators to remove the employee’s network access.

    •   The State agency did not have adequate policies for background checks of employees
        who had access to ePHI. We judgmentally selected 10 employees who had access to
        ePHI and found that the State agency did not perform background checks for
        3 employees and did not have adequate documentation for 1 employee.

State agency officials stated that they were not aware that periodic refresher training on general
security awareness was required. Although State agency officials stated that employees with
significant responsibilities received training, there were no policies requiring it. State agency
officials stated that individual units within the State agency did not always document completion
of termination procedures.

State agency officials stated that they recruited individuals from providers and contractors that
had worked with the State agency. Because the officials were already familiar with these
individuals, they did not perform background checks.

Without adequate policies and procedures on training, there is an increased risk that employees
with access to the MMIS may not be appropriately trained to fulfill their security responsibilities.
In addition, employees with significant responsibilities for information security may not be able
to remain up to date with the latest information and tools to help protect sensitive information.

Without adequate policies and procedures on completion of exit documents, the State agency
runs the risk of failing to remove transferred and terminated employees’ physical and logical
access, which could result in unauthorized access to ePHI, compromising of data, or sabotaging
of information systems.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   7
Without adequate policies and procedures on performing background checks of employees,
including individuals whom an organization is already familiar with, an organization runs the
risk of hiring unqualified or untrustworthy individuals. In addition, background checks help
determine whether an individual is suitable for a given position.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   implement adequate logical access security controls to enforce the requirement that
        passwords not be reused and use a secure method to store its encrypted network
        passwords;

    •   implement additional physical access security controls to restrict access to its computer
        and telecommunications facility to only individuals who need access to the facility to
        perform their job duties;

    •   implement secure configuration settings for its network devices;

    •   strengthen policies and follow existing procedures to verify data sanitization and device
        disposal and implement policies and procedures to periodically review and account for
        inventory of all portable devices; and

    •   implement adequate personnel policies and procedures for general security awareness
        training, training for employees with significant responsibilities for information security,
        completion of exit documents for transferred and terminated employees, and background
        checks of employees, including those hired from providers or contractors.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our finding on
inadequate logical access controls and provided information on actions taken to address our first
recommendation. The State agency also concurred with our second, fourth, and fifth
recommendations and provided information on actions that it had taken or planned to take to
address our recommendations.

Regarding our third recommendation, the State agency concurred that modifications may be
necessary for the identified weaknesses in settings for network devices and stated that changes to
configuration settings were in the process of being made. However, the State agency commented
that some changes to these settings were not appropriate and provided one example. After
reviewing it, we determined that one of the weaknesses was not reportable and removed it from
the final report. However, we did not revise the wording of our third recommendation.

The State agency’s comments are included as Appendix C. We redacted information that we
considered to be sensitive.


Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the State agency’s information system general controls over its Medicaid claims
processing system. We did not perform penetration testing or review the State agency’s overall
internal control structure.

We conducted our audit from September 2012 to January 2013. We performed our fieldwork at
the State agency’s office in Boise, Idaho.

METHODOLOGY

To accomplish our objective, we used appropriate procedures from FISCAM, which provides
guidance on evaluating general controls over computer-processed data from information
systems. We reviewed policies and procedures, interviewed staff, and reviewed supporting
documentation. To perform our tests, we used an audit software-scanning program and
judgmentally selected two types of network devices for testing to identify security-related
configuration vulnerabilities.

To determine the potential impact of each finding, we used information described in Federal
Information Processing Standards Publication 199, which defines the following three levels of
potential impact should there be a breach of security (i.e., a loss of confidentiality, integrity, or
availability):

    •   low if the loss of confidentiality, integrity, or availability could be expected to have a
        limited adverse effect on organizational operations, organizational assets, or individuals;

    •   moderate if the loss of confidentiality, integrity, or availability could be expected to have
        a serious adverse effect on organizational operations, organizational assets, or
        individuals; and

    •   high if the loss of confidentiality, integrity, or availability could be expected to have a
        severe or catastrophic adverse effect on organizational operations, organizational assets,
        or individuals.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   9
                       APPENDIX B: REQUIREMENTS RELATED TO
                      INFORMATION SYSTEM GENERAL CONTROLS

GENERAL FEDERAL REQUIREMENTS

Federal regulations (45 CFR part 95) require State agencies to determine appropriate ADP
security requirements based on recognized industry standards or standards governing security of
Federal ADP systems and information processing. In addition, these regulations require HHS to
conduct periodic onsite reviews of State and local agencies to determine the adequacy of ADP
methods and practices and to ensure that ADP equipment and services are used for purposes
consistent with proper administration under the Social Security Act.

Federal requirements from the Health Insurance Portability and Accountability Act Security Rule
for access management appear in 45 CFR part 164.

ACCESS CONTROLS

Microsoft policies and procedures, as contained in the Windows XP Security Guide, provide
recommendations for passwords.

The State agency’s password policy, Policy Memorandum No. 05-06, section 4.2, states that
passwords are not to be reused.

Federal regulations state that a covered entity must implement procedures to control and validate
a person’s access to facilities based on their role or function (45 CFR § 164.310(a)(2)(iii)).

CONFIGURATION MANAGEMENT

Federal regulations state that covered entities must “[i]mplement technical security measures to
guard against unauthorized access to electronic protected health information that is being
transmitted over an electronic communications network” (45 CFR § 164.312(e)(1)) and also
must “[i]mplement a mechanism to encrypt electronic protected health information whenever
deemed appropriate” (45 CFR § 164.312(e)(2)(ii)).

SECURITY MANAGEMENT

NIST Special Publication 800-53, Security and Privacy Controls for Federal Information
Systems and Organizations, section MP-6, states that the organization must track, document, and
verify media sanitization and disposal actions.

Federal regulations state that a covered entity must “[i]mplement policies and procedures that
govern the receipt and removal of hardware and electronic media that contain electronic
protected health information into and out of a facility, and the movement of these items within
the facility” (45 CFR § 164.310(d)(1)).




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   10
NIST Special Publication 800-53, Appendix F, section CM-8, recommends that the organization
develop, document, and maintain an inventory of information system components that includes
information deemed necessary to achieve effective property accountability. In addition, section
CM-8 states that information necessary to achieve property accountability can include hardware
inventory specifications, such as manufacturer, model, serial number, and component owner.

OMB Circular No. A-130, Appendix III, section A.3.a.2.b, indicates that individuals are to be
appropriately trained in how to fulfill their security responsibilities before allowing them access
to the system, and periodic refresher training is required for continued access to the system.

NIST Special Publication 800-50, Building an Information Technology Security Awareness and
Training Program, section 1.5.2, states that chief information officers should work with the
agency information-technology (IT) security program manager to ensure that agency personnel
with significant security responsibilities obtain sufficient training in their security
responsibilities. Section 1.5 explains that one way to help ensure that an IT security program
matures is to develop and document in policy the training responsibilities for those key positions
on which the success of the program depends.

NIST Special Publication 800-12, An Introduction to Computer Security: The NIST Handbook,
section 10.2.5.1, states that, because terminations can be expected regularly, a standard set of
procedures for outgoing or transferred employees should be put in place. These procedures are
part of the standard employee separation process that is in place to ensure that system accounts
are removed in a timely manner. The separation process also includes the control of keys; the
briefing on the responsibilities for confidentiality and privacy; and several other functions not
necessarily related to information security, such as the return of property.

OMB Circular No. A-130, Appendix III, section A.3.a.2.c, indicates that background check
screening must occur before an individual is authorized to bypass significant technical and
operational security controls and periodically thereafter.




Idaho’s Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)   11
                                   APPENDIX C: STATE AGENCY COMMENTS 





                                                 I 0 A H 0               DEPARTMENT                                            OF

                                                 HEALTH & WELFARE
                C.L."BUTCtf OTTER- Governor                                                               PAIJI.J.LEARY - ­
                RICHARD M. ARMSTRONG - Diredor                                                                 DIVISION~ MEDICAl>
                                                                                                                 PostOllite Elox 831'20
                                                                                                               Bolse, ldaflo 8312().(0)9
                                                                                                               PHONE: (208) 334-5747
                                                                                                                   FAX: (208) 364-1811



            D ecember 12,2013

            Ms. Lori A. Ah lstrand
            Regional Inspector General
            Office of Audit Services, Region IX
            Department of Health and Human Services
            90 - i 11 Street, Ste 3-650
            San Francisco, CA 94103

            RE: Report Number A-90-12-03009

            Dear Ms. Ahlstrand:

            In response to the draft findings detai led in Report Number A-09-12-03009, please find the
            Department's responses below.

            OIG Finding: Inadequate Logical Access Security Controls- The State agency had an
            inadequate password setting for securing its network. Although the State agency's password
            history policy prohibited password reuse, the State agency did not enforce this requirement on its
            network password setting.

            OIG Recommendation: Iinplement adequate logical access security controls to enforce the
            requirement that passwords not be reused and use a secure method to store its encrypted network
            passwords.

            State Response: We concur with the finding and have implemented the OIG's recommendations
            regarding enforcement of password history, minimum and maximum age, length and complexity
            requirements.

            OIG Finding: Inadequate Logical Access Security Controls- The State agency did not store its
            encrypted passwords on its network server using a secure method.

            OIG Recommendation: Use a secure method to store its encrypted network passwords.




            7
                Office ofInspector General Note- The deleted text has been redacted because it is sensitive information.




Idaho's Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)                                     12
             Lori A . Ahlstrand
             December 12,2013
             Page 2 of4

             OIG Finding: Inadequate Physical Access Security Controls-                          The State agency had not
             implemented adequate physical access security contro ls to restrict                 access to its computer and
             telecommunications facility, which contained equipment that                         connected to the MMIS.
             Specifically, we noted that more than 60 individuals, including the                 Govemor, law enforcem ent,
             and the fire depa11m ent, had access to the faci lity but did not need              access to perform their job
             duties.

             OIG Recommendation: Implement additional physical access security controls to restrict access
             to its computer and telecommunications facility to only ind ividuals who need access to the
             facility to perform their job duties.

             State Response: We concur with this specific recommendation. The Department is in the
             process of working with our building security team to restrict access to the computer and
             telecommunications facility to individuals w ho need access to perfmm their job duties.

             OIG Finding: Inadequate Settings for Network Devices- We identified a total of 11
             weaknesses in this a rea: related to a router, 4 related to a switch, and 2 related to both. For
             example, the State agency allowed the use of insecure network protocols to manage network
             devices. In addition, the State agency did not restrict services on network devices, such as
             Maintenance Operations Protocol used to connect to remote systems, which were not necessary
             for the State agency's network. Manufacturers configme devices wit h default settings that are
             not needed for every network.

             OIG Recommendation: Implement secure configuration settings for its network c\evices.

            State Response: We concur that modifications may be necessary for the ide ntified weaknesses.
            Changes to configuration settings that do not disrupt MMIS business processes are in the process
            of being made. To date, our a                         that
                         For


            OIG Finding: Inadequate Security Control Policies and Procedures- The State agency did not
            have adequate policies to verify sanitization of data and disposal of devices, such as hard drives.
            Also, the State agency d id not follow its procedures to:
               o 	 document that data could not be recovered from sanitized devices,
               o 	 identify the m ethod used to remove data from discarded devices,
               o 	 obtain the name and signature of the super visor responsible for data sanitization, and
                    identify the disposal method for devices.

            OIG Recomm endation: Strengthen policies and follow existing procedures to verify data
            sanitization and device disposal.

            State Response: We concur with this specific recommendation. ITSD will update Policy- 300­
            34 Digital Media Sanitization Policy, to add the requested clarification. Procedures wi ll be
            created to supp011 the updated policy.



            8
                Office ofInspector General Note- The deleted text has been redacted because it is sensitive information.




Idaho's Information System General Controls Over Its Medicaid Claims Processing System (A-09-12-03009)                         13
            Lori A. Ahlstrand
            Decem her 12, 2013
            Page 3 of4


            OJG Finding: Inadequate Security Control Policies and Procedures- The State agency did not
            have specific inventory policies and procedures for portable devices, such as laptop computers
            and USB storage devices, and did not account tor these devices.

            OIG Recommendation: Implement policies and procedures to periodically review and account
            for inventory ofall portable devices.

            State Response: We concur with this specific recommendation. TT will create a policy and
            supporting procedures to account for and review the inventory of pottable devices.

            OIG Finding: Inadequate Personnel Policies and Procedures- The State agency did not
            provide periodic refresher training on general security awareness to employees with access to the
            MMIS. The State agency provided security awareness tl-aining only to new employees.

            OIG Recommendation: Implement adequate personnel policies and procedures for general
            security awareness training.

            State Response: We concur with this specific recommendation. IT wiU research available
            training to support this requirement and implement initial and periodic training.

            OIG Finding: Inadequate Personnel Policies and Procedures- The State agency did not have
            policies to ensure that all employees with significant responsibilities for infotmation security
            obtain tTaining in their security responsibilities. We judgmentally selected five employees and
            fOLllld that while all five had received training within the last year, one of those five had not
            recei ved any training in the prior 20 years.

            OIG Recommendation: Implement adequate personnel policies and procedures for training for
            employees with significant responsibilities for information security.

            State Response: We concur with this specific recommendation. IT, for the depa11ment will
            research available training to support this requirement.

            OIG Finding: Inadequate Personnel Policies and Procedures- The State agency did not have
            policies to ensure that exit documents were completed for all transferred and terminated
            employees. We judgmentally selected five tem1inated employees and found that the State agency
            did not have exit documents for three of them. Exit documents show the steps to be completed
            when. an employee is transferred or terminated, including collecting keys and electronic keycards
            and notifying network administrators to remove the employee's network access.

            OIG Recommendation: Implement adequate personnel policies and procedures for transferred
            and terminated employees.




Idaho's Information System General Controls Over Its .Medicaid Claims Processing System (A-09-12-03009)         14
             Lori A. Ahlstrand
             December 12, 2013
             Page 4 of4

             State Response: We concur with the finding and are in the process of formalizing and
             implementing expanded policies and procedures to ensure exit documents are completed fo r all
             transferred and terminated employees as recommended.

             OIG Finding: Inadequate Personnel Policies and Procedures- The State agency did not have
             adequate policies for background checks of employees who had access to ePHI. We
             judgmentally selected 10 employees who had access to ePHI and found that the State agency did
             not perform background checks for 3 employees and did not have adequate documentation for 1
             employee.

             OIG Recommendation: Implement adequate personnel policies and procedures for background
             checks ofemployees, including those hired from providers or contractors.

             State Response: We concur with the recommendation. The Depmtment has existing policies and
             procedures addressing background checks in its HR Policy and Procedures Man ual , Section 11B2.
             The Department will implement additional internal checks to ensure compliance with the policy
             and OIG's recommendations.

             If you have any questions regm·ding the Depa1tment's responses to these findings, please contact
             Lisa Hettinger, Chief, Bureau of Financial Operations at (208) 287-1141.




             PJL/ksl




Idaho 's Information System General Controls Over Its Medicaid Claims Processing System (A-09- 12-03009)        15
